IN THE SUPREME COURT OF THE UNITED STATES
No. ______
SOUTH BAY UNITED PENTECOSTAL CHURCH, AND
BISHOP ARTHUR HODGES III,
Applicants,
v.
GAVIN NEWSOM, in his official capacity as the Governor of
California; XAVIER BECERRA, in his official capacity as the Attorney
General of California, SANDRA SHEWRY, in her official capacity as
Acting California Public Health Officer, WILMA J. WOOTEN, in her
official capacity as Public Health Officer, County of San Diego, HELEN
ROBBINS-MEYER, in her official capacity as Director of Emergency
Services, County of San Diego, and WILLIAM D. GORE, in his official
capacity as Sheriff, County of San Diego,
Respondents.
CERTIFICATE OF SERVICE
I, Charles S. LiMandri, counsel of record for Applicants South Bay United
Pentecostal Church and Bishop Arthur Hodges III, hereby certify that on this 25th
day of January, 2021, I caused 2 packages containing 1 copy of the EMERGENCY
APPLICATION FOR WRIT OF INJUNCTION; RELIEF REQUESTED BEFORE
SUNDAY, JANUARY 31, 2021; and APPENDIX TO EMERGENCY APPLICATION
FOR WRIT OF INJUNCTION; RELIEF REQUESTED BEFORE SUNDAY,
JANUARY 31, in the above entitled case to be served by electronic and priority U.S.
mail on the following counsel:
XAVIER BECERRA, Attorney General of California
PAUL STEIN, Supervising Deputy Attorney General
TODD GRABARSKY, Deputy Attorney General
LISA J. PLANK, Deputy Attorney General
California Department of Justice

STATE OF CALIFORNIA
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Telephone: (415) 510-4445
Facsimile: (415) 703-1234
Lisa.Plank@doj.ca.gov
todd.grabarsky@doj.ca.gov
giam.nguyen@doj.ca.gov
misha.igra@doj.ca.gov
Attorneys for Defendants and Respondents, GAVIN NEWSOM, in his
official capacity as the Governor of California; XAVIER BECERRA, in his
official capacity as the Attorney General of California, SONIA ANGELL, in
her official capacity as California Public Health Officer
THOMAS E. MONTGOMERY, County Counsel County of San Diego
TIMOTHY M. WHITE, Senior Deputy
JEFFREY P. MICHALOWSKI
VALERIE PALID
DIANA GAITAN
1600 Pacific Highway, Room 355
San Diego, California 92101-2469
Telephone: (619) 531-4865
Facsimile: (619) 531-6005
timothy.white@sdcounty.ca.gov
diana.gaitan@sdcounty.ca.gov
Jeffrey.Michalowski@sdcounty.ca.gov
valerie.palid@sdcounty.ca.gov
diana.gaitan@sdcounty.ca.gov
Attorneys for Defendants and Respondents, WILMA J. WOOTEN, in her
official capacity as Public Health Officer, County of San Diego, HELEN
ROBBINS-MEYER, in her official capacity as Director of Emergency
Services, County of San Diego, and WILLIAM D. GORE, in his official
capacity as Sheriff, County of San Diego

I further certify that all parties required to be served have been served.

______________________
CHARLES S. LIMANDRI
Counsel of Record
PAUL M. JONNA
JEFFREY M. TRISSELL
LiMANDRI & JONNA LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
(858) 759-9930
cslimandri@limandri.com

